AFFIDAVIT OF SERVICE & RULE 33(H) COMPLIANCE
I, Jonathan Corbett, pro se petitioner, hereby certify that I have served this
petition, revised pursuant to request of the clerk dated October 17th, 2019, uponSolicitor General of the United States
United States Dept, of Justice, Room 5616
950 Pennsylvania Ave. N.W.
Washington, DC 20530*0001
U.S. Transportation Security Administration
601 S. 12th St.
Arlington, VA 22202
...by inserting a copy of this petition in a postage-paid USPS Priority Mad envelope
and depositing that envelope into a USPS mailbox on November 6th, 2019.
I also certify that this document meets the requirements of Rule 33.1’s word count
limit, because it contains approximately 3,950 words exclusive of appendices.

Sworn to before me this
6th day of November, 2019

Notary Public

STERLING YAU
‘ Notary Public, State of New York
Reg. No. 01YA6373507
-=E- Qualified in Bronx County
Commission Expires April 09,2022

-1-

